U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Oliver Lee White v. United States of America,
S.Ct No. 19-723
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 14,
2019, and placed on docket, December 9, 2019. The government’s response is now due on January
8, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, an extension of time to and
including February 7, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0723
WHITE, OLIVER LEE
USA

JACLYN L. DILAURO
ASSISTANT FEDERAL PUBLIC DEFENDER
150 FAYETTEVILLE STREET
SUITE 450
RALEIGH, NC 27601
919-856-4236
JACKIE_DILAURO@FD.ORG
YURI FUCHS
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5600

